<html>
<title> - DIRECTING/REQUESTING CERTAIN INFORMATION RELATING TO EXTRAORDINARY RENDITION OF CERTAIN FOREIGN PERSONS TO BE PROVIDED TO THE HOUSE OF REPRESENTATIVES; REQUESTING/DIRECTING CERTAIN DOCUMENTS RELATING TO U.S. POLICIES UNDER THE UN CONVENTION AGAINST TORTURE AND OTHER CRUEL, INHUMAN OR DEGRADING TREATMENT OR PUNISHMENT AND THE GENEVA CONVENTIONS TO BE PROVIDED TO THE HOUSE OF REPRESENTATIVES; AND REQUESTING/DIRECTING CERTAIN DOCUMENTS RELATING TO THE SECRETARY OF STATE'S TRIP TO EUROPE IN DECEMBER 2005 TO BE PROVIDED TO THE HOUSE OF REPRESENTATIVES</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 
           DIRECTING/REQUESTING CERTAIN INFORMATION RELATING TO 
             EXTRAORDINARY RENDITION OF CERTAIN FOREIGN PERSONS 
             TO BE PROVIDED TO THE HOUSE OF REPRESENTATIVES; 
             REQUESTING/DIRECTING CERTAIN DOCUMENTS RELATING TO 
             U.S. POLICIES UNDER THE UN CONVENTION AGAINST TORTURE 
             AND OTHER CRUEL, INHUMAN OR DEGRADING TREATMENT OR 
             PUNISHMENT AND THE GENEVA CONVENTIONS TO BE PROVIDED 
             TO THE HOUSE OF REPRESENTATIVES; AND REQUESTING/DIRECTING                
             CERTAIN DOCUMENTS RELATING TO THE SECRETARY OF STATE'S 
             TRIP TO EUROPE IN DECEMBER 2005 TO BE PROVIDED TO THE 
             HOUSE OF REPRESENTATIVES 
=======================================================================



                                 MARKUP 

                              BEFORE THE 

                            COMMITTEE ON 
                       INTERNATIONAL RELATIONS 
                       HOUSE OF REPRESENTATIVES 

                       ONE HUNDRED NINTH CONGRESS 

                             SECOND SESSION 
                                  ON 

                   H. Res. 593, H. Res. 624 and H. Res. 642 

                                --------

                            FEBRUARY 8, 2006 

                               --------

                           Serial No. 109-159 

                               --------

     Printed for the use of the Committee on International Relations 

                        Available via the World Wide Web:
                http://www.hollse.gov/international_relations 

                                -------

                      U.S. GOVERNMENT PRINTING OFFICE 

26-017PDF                    WASHINGTON : 2006 

  For sale by the Superintendent of Documents, U.S. Government Printing 
  Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
       DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
                      Washington, DC 20402-0001 

[TEXT NOT AVAILABLE REFER TO PDF]



</pre></body></html>
